No.
INTHE

~upreme ~ourt of tbe Wniteb ~tateg
CITY OF BOISE,

Petitioner,

V.

ROBERT MARTIN; LAWREN CE LEE SMITH; ROBERT
ANDERSON; JANET F. BELL; PAMELA 8. HAWKES; AND
BASILE. HUMPHREY,

Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 22nd day of August, 2019, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondents:
Michael E. Bern
Scott C. Jones
LATHAM & WATKINS LLP
555EleventhStreet,~
Suite 1000
Washington, DC 20004
(202) 637-2200
michael. bern@lw.com
scott.jones@lw.com

Howard Aye Belodoff

IDAHO LEGAL Am SERVICES, INC.

1447 S. Tyrell Lane
Boise, ID 83706
(208) 807-2323
howardbelodoft@idaholegalaid.org

~

r

